‘V

UNITED STATES SUPREME COURT
Supreme Court. U.S.
FILED

NOV 0 ^ 2020
David Gilmartin,
Petitioner,
v
United States of America,
Respondent.

Docket # not assigned
OFFICE OF THE CLERK

Petition for Writ of Certiorari

Petition for Writ of Certiorari
(a) Questions Presented for Review

1.

Whether an increase in a defendant’s monthly receipts and revenue

from $0 (zero) at time of sentencing to $3000 after release from prison and award
of retirement benefits under Social Security authorizes a later court under 18 USC
3664(k) to adjust the scheduled payment of restitution
2.

Whether it is proper several years after the death of the trial judge for

a later judge to change the order of restitution from 10% of earnings to 10% of all
forms of revenue, so as to amend the trial judge’s decision not to take restitution
out of my Social Security retirement benefit
(b) The parties
3.

See the caption of the case.

(c) Tables of Contents and of Authorities
4.

not required

rREemvEDi

41 Illlils

RECEIVED
MAY - 4 2021

FEB 1 6 2021
ggg#AFcT5g£^

V

(d) Published Reports Generated by this Case
5.

The history of this case is reflected in three published opinions. After

my conviction and sentencing in USDC New York Southern in Jul2013,1 appealed
to the Second Circuit. Forty-two months later, my appeal was concluded two days
before my release from prison by affirming the District Court in every detail.
• US v David Gilmartin, 684 FAppx 8 (Second Circuit, 22Mar2017)
6.

Soon after my release, I filed a motion in USDC New York Southern,

and that motion was concluded in the District Court by this:
• US v David Gilmartin, USDC New York Southern #12-cr-287,
Memorandum Opinion and Order, filed lMay2018
7.

Having lost the motion in the District Court I appealed to the Second

Circuit. I lost there also, with the following Order
• US v David Gilmartin, in USCA Second Circuit
Summary Order filed 5May2020
8.

Therefore I am now appealing to the Supreme Court.

(e) Jurisdiction
9.
(f) Statutes involved in the case, set out verbatim with appropriate citation.
10.

18 USC 3664, entitled “Procedure for issuance and enforcement of

order of restitution”, provides,
• Subsection (k). A restitution order shall provide that the defendant shall notify
the court and the Attorney General of any material change in the defendant’s
economic circumstances that might affect the defendant’s ability to pay
restitution. The court may also accept notification of a material change in the
defendant’s economic circumstances from the United States or from the victim.
The Attorney General shall certify to the court that the victim or victims owed

restitution by the defendant have been notified of the change in circumstances.
Upon receipt of the notification, the court may, on its own motion, or the
motion of any party, including the victim, adjust the payment schedule, or
require immediate payment in full, as the interests of justice require.
(g) A concise statement of the case, including the basis for federal jurisdiction in
the court of first instance

11.

In April 2012,1 was indicted for willful failure to file and pay federal

income taxes for every year 1989 to 2010 (under IRC 7203) and the associated tax
evasion (IRC 7201), plus corrupt interference with the IRS (IRC 7212) and of
course mail fraud (18 USC 1341). A jury found me guilty on 23Jan2013 after a 7day trial and I was sentenced on 26Jul2013 to four years’ incarceration, three years
of probation, the cost of prosecution and restitution of two victims. Restitution
was specifically ordered as “monthly installments of 10% of the defendant’s
earnings, after the defendant is earning money.” (emphasis in original) When I
entered prison I had no assets and no income. When after 42 months I was
released from prison 6 months early, I requested and received a Social Security
benefit, which turned out to be $3000 monthly. My probation officer and her
supervisor threatened me with punishment, up to reincarceration, if I did not pay
10% of my Social Security benefit for restitution. I explained that the benefit was
not earnings, but Probation did not accept that. I filed a motion in US District
Court for the Southern District of New York (docket l:12-cr-287-l), to get a ruling
of the District Court that Social Security benefits were not earnings.
12.

The prosecutor in his answer to my motion agreed that my retirement

benefit from Social Security was not earnings. He conceded my point on page 1 of
his answer, and devoted the rest of his answer to his countermotion, in which he
asked the District Court to rewrite my order of restitution to take 10% of all my
receipts of money. The District Court granted the countermotion, and I appealed to
the Second Circuit Court of Appeals to overturn that decision. However, the

\)

Second Circuit did not overturn the decision. Instead the Second Circuit affirmed
the District Court’s granting of the prosecutor’s countermotion.
13.

Therefore, I am petitioning this Court.

14.

This case challenges the ambiguity of 18 USC 3664(k) when

restitution is expressed as a percentage. It also questions the authority of a judge
appointed on the death of the trial judge to remove the mercy shown the defendant
in the original order of restitution.

(h) A direct and concise areument (see Rule 101

15.

In the sentence I was given on 26Jul2013, at the end of trial,

restitution was ordered as “monthly installments of 10% of the defendant’s
earnings, after the defendant is earning money.” (emphasis in original). Within 18
USC 3664, concerning “Procedure for issuance and enforcement of order of
restitution”, subsection (k) provides for notification to the court and then
authorizes the court to adjust the schedule of my payments. For me, the change in
my economic circumstances was that after my release from prison I applied for a
retirement benefit, which I had never asked for or received before being put on
trial. Social Security granted a benefit of $3000 a month. I was then age 73.
16.

A note on terminology: At trial I argued that income in the

constitutional sense does not include the wages I earn, nor does statutory gross
income. We all agreed that my wages (to which I stipulated) were my
compensation, that they were received by me and were revenue to me, to apply as I
saw fit. But I argued that they were not income taxable under IRC sections 1, 63,
and 61, despite the mention of compensation in IRC 61(a)(1). USDJ Cedarbaum
told the jury I was wrong on that point and that I owed income tax on my wages,

and so the jury convicted me. Given the dispute over terminology, I will refer here
to my revenue rather than my income. Whatever income means to the people
walking down First Street NE, inside the Supreme Court income still means
income as Americans used the word in 1909 to 1913, when the Sixteenth
Amendment was being voted on.
17.

With respect to the percentage (10%) in my restitution order, the

statute is ambiguous. The statute provides for notification of the court about any
change in my economic circumstances that meet a stated condition, and then the
statute authorizes the court to adjust the schedule of restitution in the interest of
justice.
18.

The stated condition is that the change in my circumstances affects

my ability to pay. But my ability to pay 10% of $3000 was not greater than my
ability to pay 10% when I had no revenue, such as was the case at sentencing.
19.

If restitution had been set at $100 a month, then any significant

increase in my monthly revenue ($25 or thousands of dollars) would increase my
ability to pay and satisfy the condition for notifying the court. The case law cited
by AUSA Okula concerned restitution in dollar amounts, not percentages.
20.

Parenthetical thought: The condition is actually stated as “any change

... that might affect” my ability to pay. I propose that the proper interpretation of
“any” and “might” is to relax the standard for knowing th£ the demand for
certainty as preconditions for notifying the court, but it does not authorize the court
to adjust the schedule unless the court is satisfied that there is in fact a change and
that change definitely does affect my ability to pay.

21.

My first point, that I am asking this Court to review, is that there are

two reasons why the change in my circumstances did not affect my ability to pay
10% of my new circumstances, measured by my monthly revenue.
a. Reason one. Since none of the change in my circumstances
involved my earnings, they were irrelevant to the question.
Ignoring my earnings, there was no change in my ability to
pay. It was only by misreading the restitution order the way the
new judge wanted to rewrite it that the condition of subsection
(k) could be met. Therefore the District Court was not
authorized to adjust the schedule of my restitution payments.
b. Reason two. 10% is 10%. No change in the base, from $0 to
$3000 to $10,000 changes my ability to pay 10% of the base.
So there is still no change in my ability to pay.
22.

My second point is that this Court should protect the prerogatives of

the sentencing judge. District Judge Miriam Goldman Cedarbaum, may she rest in
peace, not only sentenced me but had already during fifteen months presided over
my arraignment, my release pending trial, my trial, especially the two and a half
days I spent sitting next to her while I was on the stand defending myself, and after
that, my release pending sentencing, during which she received 50 letters from my
family and friends in support of me (if not my ideas on the income tax). It was her
responsibility based on all that she knew about me and my case to accept the guilty
verdict from the jury and design the punishment.
23.

In particular she knew I was eligible for a retirement benefit under

Social Security. She knew that I had worked without interruption from 1965 to
2012 as was brought out at trial, and that much of my work was in covered
employment. She surely knew, as did the prosecutor who answered the motion

underlying this appeal, that a retirement benefit from Social Security was not
earnings. And she knew from my financial disclosure prior to sentencing that I had
no assets left at the end of trial.
24.

It was Judge Cedarbaum who wrote that restitution would be in

“monthly installments of 10% of the defendant’s earnings, after the defendant is
earning money.” (emphasis in original)
25.

I consider it an act of mercy toward me to omit any future retirement

benefit under Social Security. She also displayed mercy (the quality of which is
not strained, for it blessed me and seasoned her justice) when she ignored the
prosecutor’s request for a heavier sentence and instead sentenced me to only four
years in prison rather than the six or seven years called for by the Sentencing
Guidelines (level 25 enhanced by 21, but the first category for criminal history).
AFFIDAVIT.
I, David Gilmartin, testify under penalties of perjury that the facts presented in this
Petition are true and correct to the best of my knowledge and belief.
CERTIFICATE OF SERVICE

J

(M"id

Oewti»^

ok

I, David Gilmartin, hereby certify that on 8February 2021 I am serving a copy of
this Petition on Assistant US Attorney Stanley Okula at the following address:
Office of the US Attorney
One Saint Andrews Plaza
New York, New York 10007.

1 The prosecutor requested a 2-level enhancement because when I took the stand, I argued that I was innocent (not
willful). But the jury’s verdict had now revealed my claim (under oath) to be perjury. He said I deserved a 2-level
enhancement for perjury, and she gave it to him (a freebie) because she had already decided to sentence less that the
Guidelines called for.

d{^I

Date: F^bmaiy-8T-202-l’

2-6 /^p S^-O^-X

rt A

David Gilmartin
452-5 August-Stxeet-^FFDesT'Vngclcs, California 90QQ&
(442) 327-5980
david gilmartin@msn.com
Yxe^Jf

#-cJ J^r esS

\

O
/ Tr-^fO
f^>c*sr s‘<^6^J

^4X5 4fe.
1/ Vwi^ ?23(/

